Presented to:

-O &

In The

±•

Supreme Court of the United Stated
No.
Supreme Court, U.S.
FILED

SEP 2 7 2021
■ OFFICE OF THE CLERK

MICHAEL R. BURNS
V.

UNTIED STATES,

Writ of Certiorari *

From:

No. 21-8022

■UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT BOSTON

FOR LOCATION: BOP. gov
Mr. Michael R. Burns
Prisoner ID #93576-038

erin av iorie, ccrrect, ce|
it; 'penalty txperjury 28 U.S.C

A!
not;
IjJ

\

I.

c

Court has a Petitioner as in Petitioners case: i
the

moving

Court to address the DNA and Fingerprint Evidence Fabrication and the Court

Refuses to go on the record to address this
courts has refused to address the dearly apparent intentionally violating petitioners
Constitutional Rights as a [citizen] inflicting extreme irreparable harm to petitioner and family.

--------With ful fabsolute knowledge of the irreparable harm being caused
to Petitioner and family from this malicious wrongful conviction.acting in
[ Own Capacity ]
continued
J
road block Petitioners claims for [ Affirmative Relief 7.
an innocent man is in prison convicted on fake andfabricated DNA and Fingerprint evidence. For ■
all parties involved are liable for [Irreparable Harm] suffered from [ Parties Negligence and
malfeasance ]ndt vacating conviction and seeking immediate release of a wrongfully imprisoned.
it violates his right to due-process of law in violation of the CONSTITUTION,

The exhibits challenged here undisputedly prove beyond a reasonable doubt
3 Massachusetts State Police Forensic Technicians was found to be fabricating
[ Fingerprint Evidence ] and f DNA Evidence ]#
involved 2

Massachusetts State Police Forensic Laboratories

The court here has 3 individual forensic technicians acting in their
individual own capacity to fabricate forensic evidence at not one but two different
Massachusetts State laboratories...?
.Writ of [Certiorari ■
Question presented
CS KlsWvX.

V. 0\AJ

o

\/w\

-g,\

0.0. g*

g. r r*. i \ gsg

V K

J

Co

VCx tJ v

^

f-i^ V\r r\ \ ^ e Vj ee ‘ \\o

iVL KidWcivA

\\

r>-.A -w, v

Wx, ttfcA

c

QlC

_\LvcVx OtQ ■ Ova \v\ Vhtt<p r“v C
\

rs^

<3 ft.

Judgment or decision on merits

exceptional circumstances warrant the exercise of the Court’s discretionary powers

0)r. NAC

YL
Vft

u
UU-5 2021

specific claim for [ AFFIRMATIVE RELIEF ] ,

I.

acate.."

Compare exhibits 78 v. 126 and 127 when compared the gloves are not one and the
same. First received and photographed at laboratory exhibit 78. The gloves are cut right
the gloves in this photograph

at the wrist and upon examination of

that was taken by David R. Mackin when the alleged fingerprint analysis was conducted
then the gloves were placed in Locked % Evidence Storage. A second DNA sample
technician testified on the record to specifically, the evidence was taken out of
Locked % Evidence Storage and the next photographs were personally taken by Jessica L.
Robidoux exhibits' 126 and 127 . With no reasonable doubt the gloves are not one and the
same, clearly the gloves were substituted? The respective photographs were taken at the
Lakeville, Ma Laboratory that Only conducts Fingerprint Testing, and takes Forensic DNA
samples. The DNA samples get sent to a completely different laboratory
the Top

DNA UNIT for testing, the [ Massachusetts State

Police Forensic Technology Center ] located in Maynard, Ma. Clearly the gloves 2nd
received out of Locked A Evidence Storage were substituted [?] We know this,
respectively this is undisputed fact the evidence indisputable. The issue is one singular
sample was taken off the inside and the outside of the clearly substituted gloves and sent
to the a completely different Laboratory the Top
and analysis.

DNA unit for testing

the DNA unit came up with a major DNA profile off the

inside of the substituted gloves. The evidence is irrefutable Petitioners' major DNA
profile was fabricated [ off the inside of the substituted gloves ] .1

For first. Fingerprint Technician took photographs upon receipt then put those
same gloves in to Locked % Evidence Storage. A Second DNA Sample Technician
receives gloves out of Locked % Evidence Storage and personally photographs the
gloves exhibit 126 and 127.

II.

clearly depict the latex gloves were substituted and the DNA was fabricated as a
major profile from the alleged singular sample that was taken off the inside , of the
substituted latex gloves all photographic evidence that clearly showed the disparity between the
Fingerprint Technician and then after receipt out

latex gloves first photographed with

of locked 6 evidence storage with the second DNA Sample Technician photographs
For the DNA Sample Technician here at the Lakeville, Ma Laboratory took
samples off the newly substituted gloves depicted in exhibits 126 and 127 and sent those
samples to a completely different Laboratory for testing and analysis the Top
DNA unit for testing and analysis located in Maynard, Ma.

the

DNA unit came up with a major DNA profile off the inside of the substituted gloves. The
evidence is irrefutable Petitioners' major DNA profile was fabricated [ off the inside of
the substituted gloves ] . see that the gloves were substituted at the Lakeville Laboratory between
examinations for Fingerprints and DNA Samples all the forensic evidence is in clear question and can not be relied
on ■

Laboratories work in this case is in question as well as the testimony that was derived from the three

Massachusetts State Police Forensic Technicians from the 2 different Laboratories.
Court has a Petitioner as in Petitioners case methodically and relentlessly moving
the

Court to address the DNA and Fingerprint Evidence Fabrication and the Court

Refuses to go on the record to address this

In The

interest of justice preserving the public integrity in the judicial system and most
importantly the Constitution of the United States the Petitioners Wrongful Conviction
needs to be vacated immediately. [ Petitioner ] and [ Family ] have and are continuing to
suffer [ Irreparable Harm Daily ]. The court here has 3 individual forensic technicians acting in their
individual own. capacity to fabricate forensic evidence at not one but two different'
Massachusetts State laboratories...?
-See

page 4

concise statement of the case

must be liberally construed Hains v. Kerner 404 us 519 (1972)

III.

LIST OF PARTIES

[v^AIl parties do

For the First Circuit

1.

appear in the caption of the case on the cover page.

RELATED CASES

US. COURTS OF APPEALS

‘ (No. 21-8022; Issued: June:, 2021

Transcript of Jury Trial

;

___No. 12-2318

2.

U*S« District Court
Transcript of Jury Trial

l:10-cr-l0390-GAO
November 1.3.14. 2019

Dec 20,2016

15A720

April 24, 2017

16A611

October 2, 2017

17-5498.

3.
SUPREME COURT

{ot*

oi 0
,e0ieA February 20, 2018

• *

,ice^«oVa

?S^0Tl

0

20-5233

\K\&

-to®3*
IV.

October5, 2020

17-5498

March 22, 2021

20-5233

Page

TABLE OF CONTENTS
OPINIONS BELOW

l.

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3.

STATEMENT OF THE CASE

4.

REASONS FOR GRANTING

DNA And Fingerprint Fabrication

CONCLUSION

26.

V.

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Youngblood v. Arizona 488 U.S. 51 (198S)

(19)

Limone v. United State 372 F.3d, 45 (lr Cir 2004)
Napue v. Illinois 360 U.S. 264 (1954)
. Strickier v. Greene 527 U.S. 150 (1998)
Giglio v. United states 405 U.S. 150 (1972)
Baeley v. United States 473 U.S. 667 (1772)
United States v. Agurs 427 U.S. 97 (1972)
United States v. Olano 507 U.'S. 725(1993)'

(20)

Chapman v. California 386 U.S. 24 (1967)

STATUTES AND RULES
CONSTITUTION
Section 1. [Citizens of the United States.]

AMENDMENT 14 Equal Protection

All persons bom or naturalized in the United States, and. subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws,.
The equal protection guarantee of the Fourteenth Amendment prohibits the state from "denying] any
person within its jurisdiction the equal protection of the laws.” U.S. Const, amend. XIV, § 1. With
reference to a governmental action, this language has been interpreted to mean that "all persons
similarly situated should be treated alike.
L Ed Digest: Constitutional Law § 840.3

1. The right to a fair trial, guaranteed to state criminal defendants by the Due Process Clause
ofthe Fourteenth Amendment, imposes on states certain duties consistent with their sovereign
obligation to ensure that justice shall be done in all criminal prosecutions. When a state suppresses
evidence favorable to an accused that is material to guilt or to punishment, the state violates the
defendant's right to due process, irrespective of the good faith or bad faith of the prosecution.
(Stevens, J. Joined by Kennedy, Souter, Ginsburg, andBreyer, JJ.)
Although a state is obliged to prosecute with earnestness and vigor, it is as much its duty to refrain from
improper methods calculated to produce a wrongful conviction as it is to use every legitimate means to
bring about a just one. Accordingly, when the state withholds from a criminal defendant evidence that is
material to his guilt or punishment, it violates his right to due process of law in violation of the CONSTITUTION

VI.

V
IN THE
SUPREME COURT OF THE UNITED STATES

OPINIONS BELOW

Supreme Court
15A72Q
Application to exceed Page limits D0C 20, 20*1 6
Application Rehearing
Writ of Certiorari
Rehearing

16A611
April 24, 2017
17-5498
October 2, 2017
17-5498
February 20, 2018
20-5233

Writ of Certiorari

October 5, 2020
20-5233

Application
Request for Rehearing

March 22, 2021

12-2318

[No. 21-8022,
[issued: June 15, 2021

US, COURTS OF APPEALS October 21 2019
l:10-cr-10390-GAO
US, District Court November 1 3,14, 2019
l

JURISDICTION
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
District court; 18 ItJ.S.C- 3231
/
Court of appeals 28 U.S.C. 1291
Supreme Court 28 U.S:C.1257

i
i

<
leva]
CmIMhI Meta as ■ [ddmsl WUaskrg aauwa krtmrsMa rira,»w<B)»> aai body. Nddaata aw

on d* bo.

dut ka aw bcw hkmM

:

A M^jot DNA profile polled off the Inside of substituted late* glove,. gh
tlores were substituted end or switched *t>
hborwwy with e completely different peir of gloves before (*DNA*) sample technician wie
second In receipt of the si*stltutod latex glove. .fie, teehnicien polled the latex glove* out of
locked t evldenee storage in Ukeville Ub. Teehnicien Jessie, L. Rabido« took samples off the
new ("DNA free-) l.tez glovu thet were tubstituted and rent the ampler from Ihe Lakeville, Me
laboratory to the (*DNA unit*) In Maynard Most disturbingly the fJNA uniff) ermc up with •

I

fnijof (-DNA profile") on Pelidoner er to (he ampler thet were taken off the newly substituted

I

Mexglover.
fingerprint teehnleion David R. Meeldo et Ukeville, Meraeborettrl
leboretory febriented fingerprint evidence „d laboratory doecm„l,ti,«, ,f fingerprint
analyrlr on the substituted tatdr glover which were eet (be gloves thet were originally
received io ease in chief tber firing tight to fair, elidted lerfimo.y derived from the dearty
substituted gltvea th« ringerprialTechnician porportedly aoatyied.

i

i

We bring the Courts •ttentioo to the disparity on the origioally received gloves to
the gloves that were substituted to which the DNA evidence was fabricated off the

!

substituted gloves. With no reasonable doubt exhibit 78 the originally received gloves
compared to exhibits 126 and 127 which are suppose to be one and tbe same ore
clearly not one and tbe same respectively tells (his Court tbe gloves were tubstituted at
the Lakeville, Ms Laboratory.
Inadvertently samples were taken off the substituted gloves and seal to the mother

[

I .

Supreme Court-

• laboratory for DNA testing and analysis. Respectively the most disturbing fact
Petitioners DNA came up as (.major profile off the inside of the substituted gloves

15 A720

whieh teUs this Court Petitioners DNA was maliciously fabricated

Application to exceed Pag* UuQgc 20, 2016

16A611
'.application Rehearing
Writ of Certiorari

April 24, 2017

17-5498
October 2, 2017
17-5498
February 20,2018

^

•
I

20-6283
West or Ocrnoiiai

I October 5,2020

Application
Request for Rehearing

March 22. 2021

20-6233

12-2318

US. confers op am^os Pctober&,2tHe

~

Tbe fret b the gloves that were origbnlty received were tubstltuisd, By die evidence ef teeoad
(echaidaas own tvstiracaiy ef /etlew rejiht* noted eo ber pbotoguph tad (be fingerprint
Itchairiaos owa testlmoey Q S-16.t0 of the residue being •'chemical be oiled Welvrop. Tbe
reviewer eto elcarty see that these substituted, and out (be originally received gloves by
fioferprti! Tee,where processed tbe flnguprinu.bctbre this seeded ttehaielaa pleki evidence up
out of lode evidence storage^end pcrsoeaOy tikes (he first photopiph^of (be sebstltuted gloves
in qwstton. for ail cao eee that the gloves to question beyood doubt substituted. B'ased oa this
fiat the petitioner, DNA <v*s fabricated not enly off the octtsMe ‘as received*, but moil
Impartially fabricated off the to,Ida "as rteeived- aobsdtuted gloves le question. In short
eshert exhibit 78 to toe Gagei print technleitas photographs, es (be reviewer os sea the received
gloves e tutu e S-IU0 MS.U are .... eet attbe wrist...-. Tbe proceeding DNA sample Tee's
Pbotopaphi exhibit ■Si-t»£S->4,u0MU<0S-s<.«0S-*4JI0J-n,17The (loves arc complete
verse cut as the origtosb...'? Cooseqtseetly eallisf to to.qctrion toy asd ell (tstlaeoy tad
•ridem bese tbenoo that wu (brtaiieaDy processed as cites of the 2 Metsuehnstta States
Police fbrendc Laboratories to LakeriDe or Mayutnl Plainly tpeaUag ail 3 faucsle teehaktoos
tesfimoay b void and ooreUable .(.]
EjMM 71 aft a*pn •taMffrilK na^a rWf D4,Q7t t
• *■
-v*7 *wty ml aaa uri S«
*0F*Tt*4vmfc«prefak»hnb AtfpnMwn M>rONA^«flk«pM Mrfcv^«ffO«nb(te<
*|)r«hAjM lit,

• l:10-cf-10390-GAO
US, District Court November 1,3,14,2019

«•
.

pkttgwfc

.

W-

IH {Ffatftrfffat Hoiiwj. Tte

71 nM«M

Us

i mhw fti fltujiM co»W

ywarty Mfe ««

tmSmim. 71***** i 4imtt 4a • letM IMw

I
Ibimia mnimi ivrihit
I
1

2

punaiC] |iewa[i.wa &a slug imbed awtf lvalue I eridcaca natvca,dse<md

la abba IM.U7, TVj OKA Slaftn art ■«»— aC at rWataae

j a i taqMl °yra traumaj.au by a

icvtraafOariamcvpMttrfcMpiddaaasONA.e vearaMy.eonvta k lUlidri atBa BO. 3ts&. eg* mi Fawnam
Aweaewao w>dw da OaxMoa af 0m tMrad Ma a a ette*

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Equal Protection.

AMENDMENT 5

1.

Criminal actions-Provisions conceming-Due process of law and just compensation clauses.
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of War or public danger; nor shall any person be.
subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a. witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private' property be taken for public use, without just
compensation.
.
_ .
.
AMENDMENT 6

2.

Rights of .the accused.
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his defence.
AMENDMENT 14

3.

Section 1.

[Citizens of the United States.]

All persons born or naturalized in the United States, and. subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws.
The equal protection guarantee of the Fourteenth Amendment prohibits the state from "denying] any.
person within its jurisdiction the equal protection of the laws." U.S. Const, amend. XIV, § 1. With
reference to a governmental action, this language has been interpreted to mean that "all persons
similarly situated should be treated alike.

L Ed Digest: Constitutional Law § 840.3
1. The right to a-fair trial, guaranteed to state criminal defendants by the Due Process Clause'
of the Fourteenth Amendment, imposes on states certain duties consistent.with their sovereign
obligation to ensure that justice shall be done in all criminal prosecutions. When a state suppresses
evidence favorable to an accused that is material to guilt or to punishment, the state violates the
defendant's right to due process, irrespective of the good faith or bad faith of the prosecution,
(Stevens, J., joined by Kennedy, Souter, Ginsburg, andBreyer, JJ.)
Although a state is obliged to prosecute with earnestness and vigor, it is as much its duty to refrain from
improper methods calculated to produce a wrongful conviction as it is to use every legitimate means to
bring about a just one. Accordingly, when the state withholds from a criminal defendant evidence that is
material to his guilt or punishment, it violates his right to due process of law in violation of the CONSTITUTION.
3

STATEMENT OF THE CASE

Compare exhibits 78 v. 126 and 127 when compared the gloves are not one and the
same. First received and photographed at laboratory exhibit 78. The gloves are cut right
the gloves in this photograph

at the wrist and upon examination of

that was taken by David R. Mackin when the alleged fingerprint analysis was conducted
then the gloves were placed in Locked A Evidence Storage. A second DNA sample
technician testified on the record to specifically, the evidence was taken out of
Locked % Evidence Storage and the next photographs were personally taken by Jessica L.
Robidoux exhibits’ 126 and 127 . With no reasonable doubt the gloves are not one and the
same, clearly the gloves were substituted? The respective photographs were taken at the
Lakeville, Ma Laboratory that Only conducts Fingerprint Testing, and takes Forensic DNA
samples. The DNA samples get sent to a completely different laboratory more
specifically the top

DNA unit in Massachusetts the [ Massachusetts State

Police Forensic Technology Center ] located. in Maynard, Ma. Clearly the gloves 2[td
received out of Locked A Evidence Storage were substituted (?] We know this,
respectively this is undisputed fact the evidence indisputable. The issue is one singular
sample was taken off the inside and the outside of the clearly substituted gloves and sent
to the a completely different Laboratory the Top
and analysis.

DNA unit for testing

DNA unit came up with a maior DNA profile off the

inside of the substituted cloves The evidence is irrefutable Petitioners' major DNA
profile was fabricated [ off the inside of the substituted gloves J .
Petitioners' major DNA profile was fabricated off the [ Inside ). of substituted gloves#
4

•;

fij

7.

S7S

Ml S3

arc*

f

f

1

|||||

.1

)ii

jw

m

irt

fir'

hft

tohhhi
Pli

rgfe

$&£§?<§«

MH
&
w

few;

if
'mlmmft£Mglnil
Ife
Vi: «]

M

g.

rJ#P£-

m
&>.

fg

1$IvSiTraSi

(£j
ff.

mm

wJSk.

3

>3

HI

&

>p™

ff£l

m

•*i

Kg

&S&agg

2?i

E

(W

1§1

111111

P@ 4-126,16 @ 5-16,6 @ 5-25,12®

i®§

iltjgp

m

fa

ggg

Is •
m
%

CSi

r.:<

w

SSP

Cut At The Wrist

ifl
[£

tt&i

r;

ms***
m

in

and the same.as exhibit 126,127?fc£BS^fi£ y^? Si'’-?^ cIearfy not one “d **
Exhibit 78 are suppose to be one
gloves in exhibit 126,
same. The alarming problem here is that petitioners major DNA profile was fabricated off the substituted
note clearly marked on exhibit 126 [Fingerprint Residue] That tells reviewer the fingerprint examiner wfcome personally took the
photograph exhibit 78 substituted the gloves, during his purported examination. Then put the evidence in to locked ft evidence
l

storage....

Locked £ Evidence Storage \

Locked A Evidence Storage

The second examiner received and personally photographed the gloves received out of locked ft evidence storage ,depicted
in exhibit 126,127. Then DNA Simples are taken off the substituted gloves,and sent to a completely separate laboratory,that by a
review of the photographs fabricated petitioners DNA,to wrongfully convict in violation of the Fifth, Sixth, Eight and Fourteenth

ssm

Amendments under the Constitution of the United States as a citizen.

-—...........„
. ___T__
liiiili

r

iSSSUSilfs_ w^S^^^|s||Bappg8 T

PHHfHplBli

HR

'MpSMHi

t

>

■HMMriHtoi

i

4

ill
6

I

Compare exhibits 78 v. 126 and 127 when compared the gloves are not one and the
same. First received and photographed at laboratory exhibit 78. The gloves are cut right
the gloves in this photograph

at the wrist and upon examination of

that was taken by David R. Mackin when the alleged fingerprint analysis was conducted
then the gloves were placed in Locked % Evidence Storage. A second DNA sample
technician testified on the record to specifically, the evidence was taken out of
Locked A Evidence Storage and the next photographs were personally taken by Jessica L.
Robidoux exhibits' 126 and 127 . With no reasonable doubt the gloves are not one and the
same, clearly the gloves were substituted? The respective photographs were taken at the
Lakeville, Ma Laboratory that Only conducts Fingerprint Testing, and takes Forensic DNA
samples. The DNA samples get sent to a completely different laboratory
the Top

DNA UNIT for testing: the [ Massachusetts State

Police Forensic Technology Center ] located in Maynard, Ma. Clearly the gloves 2nd
•received out of Locked % Evidence Storage were substituted [?] We know this,
respectively this is undisputed fact the evidence indisputable. The issue is one singular
sample was taken off the inside and the outside of the clearly substituted gloves and sent
DNA unit for testing •

to the a completely different Laboratory the Top
and analysis.

\ the DNA unit came up with a major DNA profile off the

inside of the substituted slaves. The evidence is irrefutable Petitioners' major DNA
profile was fabricated [ off the inside of the substituted gloves ] .
Petitioners' major DNA profile was fabricated off the [ Inside ] of substituted gloves
For first Fingerprint Technician took photographs upon receipt then put those
same gloves in to Locked 6 Evidence Storage, A Second DNA Sample Technician
receives gloves out of Locked A Evidence Storage and personally photographs the
gloves exhibit 126 and 127.
7

i

clearly depict the latex gloves were substituted and the DNA was fabricated. as a
major profile from the alleged singular, sample that was taken off the inside , of the
substituted latex gloves all photographic evidence that clearly showed the disparity between the
. latex gloves first photographed with

Fingerprint Technician and then after receipt-out

of locked 6 evidence storage with the second DNA Sample Technician photographs
For the DNA Sample Technician here at the Lakeville, Ma Laboratory took
samples off the newly substituted gloves depicted in exhibits 126 and 127 and sent those
i samples to a completely different Laboratory for testing and analysis the Top
DNA unit for testing and analysis located in Maynard, Ma.

the

' DNA unit came uy with a major DNA profile off the inside of the substituted slaves. The
1 evidence is irrefutable Petitioners' major DNA profile was fabricated [ off the inside of

i

■the substituted gloves ] . see that the gloves were substituted at the Lakeville Laboratory between

i

examinations for Fingerprints, and DNA Samples all the forensic evidence is in clear question and can not be relied
I

on

i

Laboratories work in this case is in question as well as the testimony that was derived from the three

Massachusetts State Police Forensic Technicians from the 2 different Laboratories.
Court has a Petitioner as in Petitioners case methodically and relentlessly moving
the

Court to address the DNA and Fingerprint Evidence Fabrication and the Court

Refuses to go on the record to address this

In; The

interest of justice preserving the public integrity in the judicial system and most
importantly the Constitution of the United States the Petitioners Wrongful Conviction
needs to be vacated immediately.^ Petitioner ] and [ Family ] have and are continuing to
suffer [ Irreparable Harm Daily ].,The court here -has 3 individual forensic technicians acting- in theii
lindividual own,capacity to fabricate forensic evidence at not one but two different
Massachusetts State laboratories...?

8

j

The lower court erred

this case a wrongful

conviction based on fabricated forensic evidence in violation of the Constitution and
fundamental due process. Specifically petitioners DNA as well as fingerprint forensic
evidence was bottom line fabricated to wrongfully convict petitioner depriving this
United States Citizen of his life, liberty, and pursuit- of happiness under the bill of the.
Constitution. Plainly speaking this case has the possibility of'
’’other state

effecting

and federal convictions tried in the Commonwealth of

Massachusetts. The court here has 3 individual forensic technicians acting m their
individual own capacity to fabricate forensic evidence at not one but two different
Massachusetts State laboratories...? Those being the Top of the Hub main scientific
forensic laboratory that is the location of the DNA Unit in Maynard. The other being the
South Shore Headquarters of the State Police Forensic Laboratories located in Lakeville,
Where two technicians fabricated fingerprint analysis, Laboratory documents, and where
physical forensic evidence was suppressed in violation of Youngblood v. Arizona 488
U.S. 51,51 109 S.Ct 33, 102 led.2d 281 (1988) holding the intentional destruction of
potentially exculpatory evidence is a due process violation. The setting creates the case
therefore it is explained that this laboratory located in Lakeville is an undersigned
laboratory to the Top of the Hub laboratory in Maynard. For Lakeville laboratory here
was the 1st to. receive the physical evidence in one brown shopping bag like "evidence
bag" that contained all the evidence that was submitted to laboratory for testing and
analysis at the direction of the prosecution.
Mainly Lakeville laboratory conducts the 1st receipt, separation, and
distribution of evidence submitted. Inventory id taken and items are here identified and

9

\

placed in locked evidence storage, all at the same time separate departments that conduct
•various testing are notified items are separated, identified, inventoried, and identified for.
testing and analysis.

Lakeville laboratory does

forensic fingerprint testing.

Other then fingerprints this laboratory mainly only identifies,' inventories, separates,
photographs, all the evidence received with one exception, takes samples for DNA
testing. The DNA samples are only taken in Lakeville by a forensic DNA sample
technician that photograph's and processes the submitted evidence. Those samples are
transported to .the mother laboratory located in Maynard. Where in this case the State
Police DNA Unit is located: So one has fingerprint evidence, laboratory documents, and
physical evidence, being suppressed and fabricated at the Lakeville Laboratory. Then
consequently based on the evidence at the 1st Lakeville laboratory exposes the "fact’1 that
the second Maynard .laboratory fabricated petitioners DNA.

lower 1st Circuit affirmed

conviction on May 1st, 2015 and denied En banc on October 19th ,2015. Not even going
on the record addressing the DNA and- Fingerprint fabrication and petitioners wrongful
conviction as a United States Citizen? Not much to be said appointed counsel refused to
file on DNA and Fingerprint fabrication played dumb like "O" "I do not see the
difference in the gloves". So the issue was not presented in counsels August 6th, 2013
direct appeal, appellate brief? Petitioner plead to Court, cotinsel and was igmpred. Six
months later prosecution filed a Motion To Summarily Affirm on January 7th, 2014 and
—See also RESPONSE April 7,2014
went on the record on pg 25 addressing the gloves cited; Petitioner also claims that the
differences in the apparent lengths of the gloves as shown in pictures of the gloves that
were introduced into evidence shows that that DNA was fabricated, but a review of the
pictures petitioner cites indicted that, in the picture in which the gloves appear shorter,
the wrist portion of the gloves was turned inside?

10

Know that a

30 year experienced counsel represented this petitioner

by C.J.A appointment for defense. In Other words appointed defense Michael C.
Andrews from Boston, Massachusetts
technicians is flawless as

trial -cross-examination of these 3 forensic

it should be with 30 years experience. Completely secured the

chain of custody and above all secured the fact that the Samples that were taken in
Lakeville were taken in a

cross-contamination free process. Defense even elicited from

sample technician when the gloves received were processed. @ 5-79,22 technician used
■as many- precautions as absolutely possible when turning gloves received inside out;
wearing fresh gloves: putting gloves on new sterile paper, Elicited by defense
counsels question @ 5-79,19 and if someone turned the gloves inside out, you could
transfer DNAfrom the Exterior to Interior*? At the time of testimony this 8 year sample
technician testified a half dozen times to sterilized work environment and to changing
her gloves during processing. @ 5-73,15 I change my gloves frequently. @ 5-79,19
wearing fresh gloves. @ 5-73,15 I change my gloves frequently. @ 5-82,2 Change
gloves all the time? That is right Half a dozen times testified to changing her gloves
during her sterile examination. Completely sterile cross-examination free work
environment. Sample technicians testimony @ 5-67,13 the items are deposited into
locked evidence storage. I then receive notification from the trooper who did the
. ■ fingerprints that any items he "may" have fingerprinted are ready for me to examine. As
in this case the fingerprint analysis was conducted before this second sample technician

ll

picked evidence up out of locked storage. @ 5-66,16 You examined the gloves after they
were examined for fingerprints? That is correct Now once received by this second
technician out of locked storage photographs are taken. @5-34,17 Did you personally
take a series of photographs? DNA Sample Technician "I Did" When 1 begin my
analysis out of locked storage; I bring it to my work station area, which has been
sterilized beforehand, and "all" the tools that I may use are also sterilized. I then
photograph the packing that the items actually come in. 1 take the evidence, out and I
photograph the evidence as i received it before I do any type of testing. @ 5-69,18
sterilized the work environment. @ 5-70,1 to prevent contamination. @ 5-73,2 That
is why yon dean the table @ 5-79,24 Sterile paper. It has been clearly laid out crosscontamination free sterile examination of the gloves received by technician whom
personally takes her own photographs upon receipt of evidence. As does the fingerprint
technician in this case personally took his own photographs upon receipt of the evidence
@ 4-121,10 he opened up the packages he took items from inside out, continued taking
photographs. @ 4-126,6 So these photographs are like peeling back pieces of an omon,
al each step you took a photograph? They are responded fingerprint technician during
prosecutions cross on gloves in question- Defense @ 5-17,13 I took the photographs.
Fact both technicians took their own photographs at different times during the
technicians separate examinations, specifically on different dates, @ 5-66,20 @ 566,24 after they examined for fingerprints DNA sample technician received gloves at
this Lakeville laboratory she stresses she is extremely cautious during her'examination,
sterile work environment cross-contamination free as well as changes her gloves half
a dozen times. @ 5-86,2 that is to prevent, cross-contamination she responded.

12

shipped off to the laboratory? Tec Correct. @ 5-78,21 Again I ask you the same
question: If the interior - if that sample should test positive for DNA, or they locate
DIVA, we do not know if it came from the right glove or the left glove or both gloves?
Tec It would be the right, the left, a combination, we do not know. Prosecution
confirmed the samples being taken offoutside of the gloves as well as inside by
eliciting sample numbers. @ 5-50,8 And the sample number that you assigned' the
swabs from the outside of the gloves, what item number did you give that? Because the
gloves were item 1t4, a sample that is .taken from the gloves becomes 1-4.1. @ 552,17 And for the interior swabbing, what number do you give that? The original item
number, the gloves, is 1-4. The first @ 5-52,20 sample I collected from it was a [.!.]
because this was the second sample that I collected from it, it is given a [.2.], So it
becomes item 1-4.2. Now here it has been laid out sterile cross-contamination free
process taken singular samples of the purported gloves, and chain of custody samples
are.numbered 1^4.3,. for outside "as received", and 1-4.2. for inside "as received11 @
5-78,19 samples axe shipped from location in Lakeville laboratory and sent to the
DNA UNIT that is located in Maynard. Where as- in this case the main the State Police
DNA UNIT received samples for testing and analysis. Processed by a Level 3 technician
with at the time of trial @ 5-93,22 been employed over 16 years with the State Police
DNA UNIT. @ 5-94,2 Actually since the inception of the unit. When I first was
employed by die State Crime Laboratory, I worked in the Criminalistics units. And at the
time we did not have a DNA UNIT, but we were able to bring that on. I was a part of
the start up. of the DNA unit back in 1998. At trial this technician with 16 years
experience a bachelor of science in biology @ 5-96,24 has an Harvard extension

13

school masters in natural sciences. Highly education and a top level 3 technician
@ 5-99,24 actually just before we get to that how many
DNA tests do you perform a month 7 @ 5-100,2 I review a lot of work as wfell @ 5batch of cases which consists of about 15 case.
100,3 currently I'm working on a

@ 5-98,9 Laboratory

is accredited by @ 5-98,13 ASCLD/LAB American

Society Of Crime Laboratory Directors'!

Interestingly enough the laboratories case file is paTt of the record here
and may be used because both Lakeville DNA Sample Tec and Maynardlevel 3 DNA
analysis Tec here at trial both had the case file on the stand during testimony most
importantly refers to file during testimony. Court gave consent but file was not admitted
subjected to file. @ 5-66,11 I'do
as an exhibit during trial? It is not know if jury- was
have my case file, DNA Tec. @ 5-99,13 May I refer to my report. Defense, Does she
not remember? Looking at my report would help me remember the accurate facts level 3
Tec. Court: Okay gave permission. At defense objection @ 5-145,7 Excuse me, is she
reading another report. Level 3 Tec, This is my DNA file. Laboratories case files
both refer to by forensic technicians whom physically had the file on the stand while
giving testimony therefore may be refered to now on review. Now the DNA samples
are

received at the main DNA UNIT in Maynard then tested and analyzed for the trial.

Note that there are no photographs taken at this second laboratory to secure the
chain of custody as was methodically done in Lakeville, the trial transcript reads the
same. Samples are received tested and on to trial testimony concerning the DNA samples

14

Defense which is in the world of DNA probably the most important rule7 It is very
important not to contaminate item with your DNA, and not to contaminate items
with other items DNA, yes it is important. Defense counsel really doing a dream team
cross-examination on the forensic technicians in this case, especially the DNA sample
technician here on specifically the gloves in question. Basely speaking air tight eliciting
from technician only One Sample was taken off the outside, and only One Sample is
taken off the Inside of both gloves together as a pair. One sample is taken from both the
OUT

side, and one sample is taken from both the insides together. That one sample is put in a

single test tube and shipped.to be tested @ $-76,19 And you took a - I think as you
explained it, you took a simple [SINGLE] - what ended up being a [SINGLE]
sample from the exterior of both gloves? Correct So you swabbed the exterior of both
gloves and put it in to a tube right? Correct @ 5-77,17 Once the samples is processed,
and assuming that the DNA Material is .extracted from the sample that you provided, you
can not tell if DNA came from one glove, the right glove, the left glove, or both
■ gloves? Technician responded, there is no way to know. Because yon take - you only
take one sample, you do not test the right glove and then test the left? Tec it is
combined together as one- sample you put it all together? Tec that is correct So when
you have the DNA result saying the gloves tested positive for DNA, it can come from
one glove, left glove or botn gloves? Tec that is possible. The same procedure was
used for the [interior of the gloves]? Tec that is correct @ 5-78,8 Interior as
received? Tec Correct So you took another swab sample, [single swab] of the
interior of both gloves? Tec Correct This single sample is put in a tube? Tec yes a
plastic tube. Plastic tube, and then you assigned its number? Tec Correct And that is

15

taken off the gloves. As clearly laid out technician only takes a single sample off the
outside of both gloves as one, and the same for the inside of both gloves as a single
sample. @ 5-78,2 Interior as received. So you took a swab sample, [single sample] of
the interior of both gloves? @ 5-78,19 sample is shipped off to the laboratory. The
main concern here will be focused on the results of the single sample taken off the
interior of the gloves "as received". @ 5-118,2 swab from interior of both gloves did
you form an opinion? @ 5-118,4 Major profile matches that obtained from petitioner.
@ 5-137,7 you note that the DNA which is the interior "as received" @ 5-137,11
petitioner had the major profile...? Response Correct A Major DNA Profile was
obtained off the inside of the gloves. Not a minor profile but a major profile was
obtained as to the petitioner. To lightly educate the reviewer here the DNA sample
technician personally took laboratory photographs during the processing of the physical
evidence. @ 5-36,8 defense counsel specifically objected, these are not simple
photographs; the actually have writings on the photographs. Arid if she testifies to what
she saw, there is more then photographs; There is partial work notes as well as
photographs. The court @ 5-37,16 admitted all her laboratory photographs. The problem
is the personal wo.rkproduct, noteiare not scientific fact that violated F.R.E 703 moving
from and through the confrontational clause. Never the less the focus here is the admitted
evidence and the DNA sample Tec personal workproduct on the laboratory
photographs she took and she wrote on during her examination. Now the personal
notes are used as evidence here. As laid out here the gloves

processed for

fingerprints before this technician picked these gloves out of locked evidence storage.
This DNA sample technician now writes notes on both photographs that she took o£f

16

gloveS@ 5-38,25 has various notes that you put on it? Correct Now the focus on one
of the 2 photographs and her notes as cited off exhibit 126; yellow {app.fmg} res.noted on
fingertips (noie;swab turned yellow). This confirms that these specific gloves are the ones that
were processed separately before, for fingerprints before being placed in to evidence
storage. For the yellow residue is from the fingerprint fi iming process, that again as laid
out was conducted before the DNA sample Tec picked up these gloves. @ 5-49.7 I also
observed that there was yellow staining on the fingertips of the gloves. In this case
item are fingerprinted before. @ 5-49,10 trooper that preformed the fingerprint
analysis had used a yellow type of dye on the gloves. So that is the residue
noting on the tips of the gloves. To the prosecutions cross on fingerprint technician
where prosecution physically.hands the gloves in question to technician @ 5-16,T Tm
going to hand you some gloves. @ 5-16,6 These would.be the gloves that were
submitted. @ 5-16,10 What is that color residue on the gloves? Fingerprint technician
responded X have actually used a chemical called wet wop. Experienced trial
prosecution @ 5-16,21 when you say "color" you are referring to some disclosure on
these gloves? Tec Yes. Now the prosecutor @ 5-16,24 Your Honor may I just show the
discoloration to the jury? The physical gloves that are in question as well as all the
other items tested were used outside of the evidence packages and all evidence was
subjected to DNA cross-contamination from trial used, and can not be retested
because open air cross-contamination of use, at trial. All items at trial during crossexamination are cross-contaminated. The fingerprint technicians testimony concerning
photograph he personally took during his fingerprint analysis of the gloves he processed.
@ 5-17,25 but I recall that they were somewhat folded at the wrist?

17

when photographs that were taken
personally by both technicians during their Separate examinations «ri compared of the
gloves, reviewer can clearly see that the gloves that axe suppose to be one and the same
. are not.
The fact is the gloves that were originally received were substituted.
By the evidence of second technicians own testimony ot yellow residue noted on her
photograph and the fingerprint technicians own testimony @ 5-16,10 of the residue being
a chemical he called Wetwop. The reviewer can clearly see that these substituted and
not the originally received gloves by fingerprint Tec where processed for fingerprints
before this second technician picks evidence up out of lock evidence storage and
personally takes the first photographs of the substituted gloves in question. For all can
see that the gloves in question beyond doubt substituted. Based on this fact the
petitioners DNA was fabricated not off the outside "as received", but most
importantly fabricated off the inside "as received" substituted gloves in question. In
exhibit 78 is the fingerprint technicians photographs, as the reviewer can see
the received gloves @ 4-126,16 @ 5-16,6 @ 5-25,12 are . ... cut at the wrist,

The

procee dingDNA sample Tec's Photographs exhibit 126-127 @ 5-3423 @ 5-35,14 @ 546,4 @ 5-46,21 @ 5-73,1? The gloves are complete verse cut as the originals...7
Consequently calling in to question any and all testimony and evidence base thereon that
was forensically processed at either of the 2 Massachusetts States Police forensic
Laboratories in Lakeville or Maynard. Plainly speaking all 3 forensic technicians
Testimony is void and unreliable

18

1
Petitioners conviction based on peijured testimony, and falsified
evidence in violation of the Fifth, Sixth, Fourteenth Amendments under the
Constitution and petitioners fundamental due process rights can not stand most
importantly needs to be vacated in the interest of justice to maintain the integrity in the
citizens confidence under the Constitution to Due process Linione v. United States,
372 F.3d 39,45-("[i]f any concept is fundamental to our American system of justice, it
is those charged with upholding the law are prohibited from deliberately fabricating
evidence and framing individuals for crimes they did not commit")- Cited in counsels
April 7^,2014 response before judgment 'Hapue v. Illinois 360 U.S. 264 (1954) 269,79
S-Ct 1173, 3 Led.2d 1217 (1959) recognizing that the State may not knowingly use false
evidence, including false testimony, to obtain a tainted conviction.. Youngblood v.
Arizona 488 U.S. 51, 51 109 S.Ct 33, 102 lecL2d 281(1988) holds the intentional
destruction of potentially exculpatory evidence is a Due process violation. Strickler v.
Greene 527 U.S. 150, 154 31 led.2d S.Ct 763 (1999) Prejudice must'have ensued.from
the suppression of the material evidence. Giglio v. United States 405 U.S. 150, X54 31
led.2d 104 92 S.Ct 763 (1972) the accused does not have a duty to request favorable
evidence from the prosecution, Only need to show that the witheld evidence, Bagley v.
United States 473 U.S. 667.87 led.2d 481, 105 S.Ct 33 75 (1972) demonstrates that the
suppressed evidence is material [that is] its suppression undermines the confidence in
the outcome of the trial and that, 'UnitedStates v. Agurs 427 U.S. 97, 107, 49 led.2d
342, 966 S.Ct 2392 (1972) There is. a reasonable likelihood the out come of the trial
would have been altered. When a defense properly preserves an "objection" to a trial
error @ 5-36,4 I have an objection - , the prosecution bears the burden of proving error

19

was harmless

United States v. Olano 507 U.S. 725, 734, 113 S.Ct 1770 123 L.ed.2d 508

(1993) foi most constitutional errors, the prosecution must show that the error was
harmless beyond a

reasonable doubt. Counsel objected @ 5-36,4 And at @ 5-37,16

overruled and admitted the several photographs with DNA sample technician
persona

1 workproduct notes contained on the photographs of the gloves in dispute,

and that allows review under harmless error and for that reason Chapman v. California
386 U.S. 24 17 led_2d 705 (1967) the prosecution must show that the "error'1 did not
have a substantial, and injurious effect or influence determining the juries verdict

court with Due respect enored

therefore the

jily affirming this Citizens wrongful conviction based on fabricated forensic

CtlTTVma

evidence that being DNA and Fingerprint fabrication with the false testimony based
thereon. This United States Citizen states his Fifth, Sixth, Fourteenth Amendments
was violated, and respectfully request the

Court of the United States to

please grant seeked (affirmative relief), vacating this wrongful conviction. Michael
Russell Bums Prays this conviction be vacated to prevent further irreparable harm to his
person

20

The petitioner a United States Citizen under the Constitution

is

wrongfully convicted based on fabricated forensic evidence that being DNA fabrication
and fingerprint fabrication with the false testimony base thereon in the reasons set forth.
Based on the evidence this conviction has to be vacated because it opens up the floodgate
of this Citizen Constitutional rights being violated whom is entitled to equal protection
under the law from and through specifically the Constitution, Bill of Rights, [ Fourth,
Fifth, Sixth, Fourteenth Amendments], equal protection under the law, fundamental due
process, from and through Limone v. United States, Youngblood v. Arizona, Napue v.
Illinois, Strickler v. Greene, Giglio v. United States, Bagley v. United States, Agurs
v. United States, United States v. Olano, and Chapman v. California in clear violation
of this citizens Constitutional rights.
For the
Court

just went against every listed case above, standard, laws, treaties

of the United States and the Constitution. Far departed from the rule 10(a) accepted and
usual course of judicial proceedings. Allows the

Court to vacate this wrongful

conviction granting the (affirmative relief) of a vacate to prevent further irreparable harm
to petitioners person. Petitioner prays for the
grant a vacate, .

Court of theses United States to

and thank reviewer for your time and discretion.

21

@ 5-79,19
Q: And if the - if someone turned the gloves inside out, you could transfer DMA
from the exterior to the interior correct?
A; It is possible, that is why-1 testified earlier that I try to use as many precautions
as absolutely possible when turning the gloves inside out: wearing fresh gloves:
putting it on new, sterile piece of paper but there are limits we can only do so much.

@ 5-81,19
Q: You would not do that would you?
A: I change my gloves very frequently throughout my examination just in
case, to take the utmost pre caution as possible
Q; Right because you want your results to be accurate correct?
A: correct
Q: You want people to rely on them right 7

@TT 5-82
A: I would like the results to be as accurate as possible
Q: Right so you take precautions, you change gloves all the time correct ?
A: That is right 1 change my gloves frequently

@5-73,15
A: I change my gloves frequently

22

@5-79,21
A: That is why I testified earlier that I try to use as many precautions as absolutely
possible when, the gloves inside out wearing fresh gloves

@5-18,20
A: I change my gloves frequently my exam just in case, the utmost precaution as
possible
@5-82,2
Q: So you take precaution. You change gloves all the time correct???
A: that is right

For the record is fully developed by Appointed Defense Counsels Air Tight crossexamination on Technicians to the point were the chain of evidence is completely secured

on the purported gloves being received out of Locked ft Evidence Storage @ TT 5-34,20

I take the evidence out of Locked ft Evidence Storage. The Technician fully testifies to

changing her own gloves before even flipping gloves inside out during examination. The
samples are taken at Lakeville Lab and then sent a completely different Lab located in

Maynard, Ma for analysis. The

DNA Lab came up with a Major DNA profile as

to the Petitioners DNA coming off the inside of the clearly substituted gloves depicted in
exhibits 126 and 127.

23

CONCLUSION
Judgment or decision on merits

The petition for a{_-

.

Writ

should be granted.

specific claim for [ AFFIRMATIVE RELIEF ] , Vacate..”
Respectfully submitted,

•m„£j 7?,.
Date: .

The exhibits challenged here undisputedly prove beyond a reasonable doubt
3 Massachusetts State Police Forensic Technicians was found to be fabricating

[ Fingerprint Evidence ] and [ DNA Evidence ]
involved 21, Massachusetts State Police Forensic

Laboratories

Wrongful Conviction THAT HAS AND IS CAUSING IRREPARABLE HARM
TO Michael Russell Bums and Family.

24

